A U D I T            M E M O R A N D U M                          N O . 3 7

                                                        March 31, 2004


To:      Paul Roye
         James McConnell
         Kenneth Fogash

From:    Walter Stachnik

Re:      Inappropriate Release of Non-Public
         Information

In September 2003, the Division of Investment Management’s (IM) staff was
informed that non-public internal documents had been posted on a publicly
accessible Internet site (Global Securities Inc’s LiveEDGAR site) and contacted us.
These documents were related to an IM no-action letter.
The documents should have been sent to correspondence files in the Office of Filings
and Information Services’ (OFIS) Records Management Branch. Instead, they were
sent to OFIS’s Branch of Filer Support 2 (Filer Support) where they were made
available to the public.
We conducted a limited evaluation of IM’s internal controls designed to prevent the
release of non-public no-action letter documents to the public. We reviewed a
judgment sample of 71 no-action letters released by IM between Fiscal Year (FY)
2001 and 2004 to determine whether the release was appropriate. Also, we reviewed
relevant laws, regulations and procedures and interviewed staff in IM and the Office
of Filings and Information Services (OFIS). We performed our fieldwork between
November 2003 and March 2004 in accordance with generally accepted government
auditing standards.
We found that, in almost all cases, the release of documentation in our sample of no-
action letters was appropriate. However, we found one additional case of an internal
IM memorandum on LiveEDGAR. We have several recommendations, noted below.

Update Procedures
IM has updated its procedures for delivering non-public documents to OFIS’ Records
Management Branch. Also, Filer Support has updated its written procedures to
include the step to return misrouted non-public documents to IM and the other
divisions.

        Recommendation A
        The Division of Investment Management should update and follow its written
        procedures for processing no-action letter documents.
                                                                                      2


       Recommendation B
       The Office of Filing and Information Services should update and follow its
       written procedures for processing no-action letter documents.

Internal Memoranda Classification
IM’s current procedures require staff to classify and stamp the front of no-action
letter responses “non-public” as appropriate, but not any related internal
memoranda. Stamping each internal memorandum separately would help the IM
Library and OFIS staff to identify these documents as non-public.

       Recommendation C
       IM should stamp internal memoranda sent to OFIS “non-public,” as
       appropriate.

Check Documents
The IM Library and Filer Support do not look through each public no-action
document to ensure that non-public material is not included. Looking through each
no-action document would further reduce the risk of releasing non-public material to
the public.


       Recommendation D
       The IM Library and OFIS should look through all materials sent by IM to OFIS
       for publication to detect inappropriately included non-public material.


Cc:   Cynthia Fornelli
      Douglas Scheidt
      Elizabeth Osterman
      Alison Fuller
      Lelia Holder
      Cecilia Wilkerson
      Shirley Slocum
      Ronette McDaniel
      Brian Johnson
      Darlene Pryor
      Peter Derby
      Thomas McCool
